                                     NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                       OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

Case Number: A12010001                                                    Page 1 ofl


    We learned a Program Officer (PO) felt pressured by her supervisorl (the subject) to
    award a proposal2 to a former program officer (the PI). The documentation in
    eJacket shows several unusual correspondences between the PO and the subject,
    which the PO confirmed were unusual in her experience. The documentation
    appears supportive of the allegation. The proposal was eventually funded.
    In our follow-up interview with PO, she said the subject has left NSF, and the new
    supervisor is fine, so the environment is much better now. Given that the subject is
    no longer at NSF, this case is closed with no further action taken.




       1
       2
